           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION
   FIELD OFFICES’ TRAINING OF STAFF

      July 2008    A-13-08-18029




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      July 28, 2008                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration Field Offices’ Training of Staff (A-13-08-18029)


           OBJECTIVE

           The objectives were to review Social Security Administration (SSA) field offices’ training
           of claims (CR) and service representatives (SR) and determine field office employees'
           perception of the training provided.

           BACKGROUND
           SSA has about 1,300 field offices nationwide where individuals can apply for Old-Age,
           Survivors and Disability Insurance and Supplemental Security Income payments, apply
           for a Social Security number, and report changes affecting their benefits. Field office
           staff comprises approximately 14,000 CRs and 5,000 SRs who provide front-line
           service to the public.

           The National Council of Social Security Management Associations (NCSSMA)
           conducted surveys in 2005 and 2007 on key SSA service issues, such as training.
           According to NCSSMA, its membership is composed of management officials from the
           Agency’s field offices and teleservice centers nationwide. NCSSMA surveyed its over
           3,300 members on SSA service issues and received about a 55-percent return rate.
           The survey findings showed “There was inadequate time to provide adequate ongoing
           training in many field offices. [Eighty-nine percent] of the respondents who stated they
           did not receive adequate ongoing training said the greatest barrier was lack of time.”

           For SSA field offices to continue providing the quality service its customers expect, we
           believe training is needed to enable staff to remain current on Agency policies,
           procedures, operations, and changes in technology. This review provides SSA with
           field office employees’ perception of training received. Since Congress and the public
           have expressed interest in the Agency’s disability-related workload, our questions
           focused on general and disability-related training. To determine field office employees’
Page 2 - The Commissioner

training satisfaction, we asked a random sample of 275 CRs and 275 SRs to complete
a questionnaire pertaining to their perception of the training they received during
Fiscal Years 2006 through 2007. We emailed each employee the Intranet Website that
contained the questionnaire.

Of the 550 field office employees in our sample, we received responses from 426:
216 CRs and 210 SRs. The CR and SR grade levels ranged from 5 to 11. We found
197 of the respondent CRs and 151 of the respondent SRs were at the highest pay
grade for the CR (grade 11) and SR (grade 8) positions. See Appendix A for detailed
discussions of the Scope and Methodology. See Appendix B for the Sampling
Methodology.

RESULTS OF REVIEW
We reviewed SSA field offices’ training of CRs and SRs and found that SSA had a
structured training program, and the training was accessible to field office employees.
We also determined field office employees' perception of the training provided and
found most CR and SR staff responding to our questionnaire were satisfied that the
general and disability-related training received for their position had helped them do
their job effectively and efficiently, and the training was provided timely. However, most
staff perceived barriers to training existed and expressed a need for SSA to improve the
training experience.

Training Was Structured and Accessible

We reviewed SSA’s training program and found that SSA had a structured training
program and the training was accessible to field office employees. For Fiscal Years
2006 through 2007, training was available to CRs and SRs for policy, systems, and
legislation changes using Interactive Video Teletraining (IVT), Video On Demand on-
line lessons, and Web-based training. Field offices and Headquarters components also
provided classroom training.

Entry-level classes for CRs and SRs (grade 5) started with the Core Curriculum. For
example, the Service Representative Basic Training, Title II Claims Representative
Basic Training, and Title XVI Claims Representative Basic Training were included in the
Core Curriculum. Instruction for these classes was provided through the IVT system.

Most Staff Questioned Were Satisfied with Training

We received responses from 426 staff members about their satisfaction with the
general and disability-related training they received. We found most CR and SR staff
responding to our questionnaire were satisfied that the general and disability-related
training received for their position had helped them do their job effectively and
efficiently, and the training was provided timely (see Tables 1 and 2).
Page 3 - The Commissioner
                                                                           1
                      Table 1: General and Disability-Related Training

      Level of         Training Helped You Do Your Job        Training Was Provided In a Timely
    Satisfaction           Effectively and Efficiently                        Manner
                      Disability-Related       General       Disability-Related        General
                      Number Percent Number Percent          Number Percent Number Percent
Very Satisfied          43          10       46        11       49         12        51        12
Satisfied              200          47      220        52      205         48       229        54
        Subtotal       243          57      266        63      254         60       280        66
Very                    15           4       22         5       11          3        9          2
Dissatisfied
Dissatisfied             40           9     42       10        35          8        48        11
        Subtotal         55          13     64       15        46         11        57        13
Neither                  79          19     77       18        82         19        74        17
Satisfied nor
Dissatisfied
        Subtotal         79          19     77       18        82         19        74        17
No Training              49          11     19        4        44         10        15         4
Within 2 Years
        Subtotal        49           11      19       4         44       10         15         4
           Total        426          100    426      100       426       100       426        100

                      Table 2: General and Disability-Related Training 2
                                  CR and SR Breakdown

       Level of          Training Helped You Do Your         Training Was Provided In a Timely
     Satisfaction        Job Effectively and Efficiently                     Manner
                        Disability-Related    General       Disability-Related         General
                          CR         SR     CR       SR      CR          SR        CR         SR
Very Satisfied            22          21     19       27      24          25        17         34
Satisfied                110          90    108      112     114          91       121       108
          Subtotal       132         111    127      139     138         116       138       142
Very Dissatisfied          9           6     13        9       9           2         7          2
Dissatisfied              27          13     25       17      22          13        27         21
          Subtotal        36          19     38       26      31          15        34         23
Neither Satisfied         41          38     47       30      41          41        42         32
nor Dissatisfied
          Subtotal         41          38    47      30       41        41         42        32
No Training within         7           42     4      15        6        38          2        13
2 Years
          Subtotal         7          42     4      15        6         38         2         13
              Total       216         210   216     210      216        210       216        210




1
    Appendix D, Questions 2 and 3.
2
    Appendix D, Questions 2 and 3.
Page 4 - The Commissioner

Most Staff Questioned Perceived Barriers to Training

We asked staff their perception of barriers to training, and most staff perceived the
existence of barriers that prevented them from receiving training needed to perform the
duties of their position.

•     About 79 percent (338/426) of staff perceived barriers to training that prevented
      them from receiving training to perform their duties.

       About 81 percent (198/243) of satisfied and very satisfied staff and 77 percent
        (140/183) of other than satisfied staff perceived there were barriers to training.

•     The barriers include lack of time, insufficient staff; pressure to move work, and
      training not available (see Table 3).

                                    Table 3: Barriers to Training

             Barrier            Satisfied and Very   Other Than Satisfied          Total
                                  Satisfied Staff           Staff
                               Number      Percent   Number      Percent    Number     Percent
    Lack of time                    76        38         47          34      123            36
    Insufficient staff              48        24         35          25       83            25
    Pressure to move work           39        20         37          26       76            22
    Training not available           8        4          2            1       10             3
    Other                           27        14         19          14       46            14
    Total                           198      100 3      140         100      338           100

Most Staff Perceived a Lack of Communication with Management

We asked staff about their communication with management regarding their general
and disability-related training needs and found the following.

•     About 71 percent (304/426) indicated they did not have a personal training plan.

•     About 59 percent (251/426) indicated they did not have a discussion with their
      supervisor or manager regarding the type of training or a specific curriculum (that is,
      a series of training classes) they should complete.

The Agency’s Performance Assessment and Communication System (PACS) is
intended to promote communication and teamwork among management and
employees. Agency officials have stated, and we acknowledge, PACS provides an
opportunity for increased communication between employees and management on
such topics as CR and SR training needed to achieve and maintain proficiency.


3
    The percentages were rounded.
Page 5 - The Commissioner

Therefore, the Agency should use PACS to promote communication between field
office management and staff regarding general and disability-related training needs.

Most Staff Expressed Ways to Improve Training

We asked CRs and SRs to express ways SSA could improve training for their positions
and found about 74 percent (316/426) expressed ways the Agency can improve training
for their position (see Table 4).

                          Table 4: Ways to Improve Training

       Improvement          Satisfied and Very    Other Than Satisfied         Total
                              Satisfied Staff            Staff
                            Number      Percent   Number      Percent    Number    Percent
 Hands on training                46         27         56         38       102         32
 More time for training           49         29         26         18        75         24
 More staff                       16         10         13          9        29          9
 Cross training                   11          7          5          3        16          5
 Refresher training               10          6         17         11        27          9
 Communicate training
 needs to management               9         5           6          4        15          5
 Timeliness of training            5         3           8          5        13          4
 Other                            22        13          17         12        39         12
 Total                           168       100         148        100       316        100

CONCLUSION AND RECOMMENDATIONS
Periodic enhancements and policy changes create challenges for CRs and SRs to
remain proficient in the delivery of services provided to the public. We found most CR
and SR staff who responded to our questionnaire were satisfied that the general and
disability-related training received for their position helped them do their job effectively
and efficiently, and the training was provided timely. However, most staff perceived that
barriers to training existed and expressed a need for SSA to improve their training
experience. As the Agency makes great strides to enhance, automate, and streamline
the disability claims process and other workloads, we believe it is imperative that these
perceived barriers to field office training be addressed.

We recommend SSA improve CR and SR training as follows:

1. Provide more “hands on” and refresher training to reinforce lessons learned and
   resolve questions that emerge from work experiences.

2. Provide more time for training to permit staff to remain proficient in the delivery of
   services to the public.
Page 6 - The Commissioner

3. Ensure staff members are aware they can communicate their training needs to
   management.


AGENCY COMMENTS
SSA agreed with our recommendations. The Agency recognized the importance of
training its employees. Investing in SSA’s workforce is essential to achieving its
mission and programmatic goals. As resources allow, SSA indicated it would continue
to train its employees so the Agency can provide the quality service its customers
expect and deserve (see Appendix E).




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – Sampling Methodology

APPENDIX C – Questionnaire

APPENDIX D – Questionnaire Responses

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgements
                                                                        Appendix A

Scope and Methodology
Our audit covered training provided during the period of Fiscal Years 2006 and 2007.
To achieve our objectives, we

•   reviewed applicable Federal laws and regulations,

•   reviewed National Council of Social Security Management Associations (NCSSMA)
    survey of management report,

•   interviewed the NCSSMA president to determine the survey methodology used by
    the organization,

•   obtained information about claims and service representative training requirements
    and training availability for Fiscal Years 2006 and 2007,

•   developed an Intranet Website for our questionnaire with the help of Office of
    Communications personnel,

•   provided a questionnaire to 550 randomly selected field office employees
    nationwide regarding their satisfaction with their ongoing training (see Appendix B),

•   analyzed results of questionnaire responses, and

•   interviewed officials and staff from the Social Security Administration’s Offices of the
    Deputy Commissioner of Operations and Training regarding the results of our
    questionnaire.

We determined the questionnaire data gathered using the Intranet Website to be
sufficiently reliable for their intended use. The data were collected using SSA’s
Website and not collected on our Website. However, we took the following actions to
ensure the data collected would not lead to an incorrect or unintentional message.

•   Field office employees were directly contacted and requested to complete the
    Intranet Website questionnaire.

•   Field office employees were assigned a unique identification number to gain access
    to, and complete, the questionnaire.

•   Used only those responses having unique identification numbers that were assigned
    to selected field office employees.



                                            A-1
•   Examined questionnaire responses and found no patterns to indicate responses
    were not valid.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our audit was performed between August and December 2007 in
Baltimore, Maryland. The entities audited were the Offices of the Deputy
Commissioners of Operations and Human Resources.




                                         A-2
                                                                    Appendix B

Sampling Methodology
As of June 2007, the Social Security Administration had about 1,300 field offices
nationwide. There were 14,495 claims (CR) and 4,629 service representatives (SR)
nationwide. We

•   obtained a list of all CRs and SRs as of June 28, 2007,

•   selected a random sample of 275 CRs and 275 SRs from the population,

•   measured CR and SR satisfaction with their training during Fiscal Years 2006 and
    2007.

We requested selected employees complete the questionnaire in 2 weeks. At the end
of 2 weeks, we sent another email request to the non-responders. After sending the
second email request, at the end of 1 week, we sent the non-responders “final" email
and telephone requests. We allowed these employees 1 week to complete the
questionnaire.

                               Table 1. Sample Results

                                    CR               SR              Total
        Population Size            14,495           4,629           19,124
        Sample Size                 275              275              550
        Responses                   216              210              426


                               Table 2. Response Rate

 Pay    CR      CR                Response       SR          SR        Response
Grade Sample Responses              Rate       Sample     Responses      Rate
   5     2        1                 50%          14           10         71%
   6                                             26           23         88%
   7                                             31           26         84%
   8                                            204          151         74%
   9    20       18                  90%
  11    253     197                  78%
 Total  275     216                  79%         275          210         76%
                                                                             Appendix C

Questionnaire
The Social Security Administration, Office of the Inspector General is conducting a review of
field office training. We want to hear from you about your level of training satisfaction. We
would appreciate it if you could take a few minutes to complete this questionnaire about your
training activities during Fiscal Years 2006 through 2007. Since Congress and the general
public have expressed significant interest in the Agency’s disability-related workload, our
questions focus on your general and disability-related training. It is important for us to hear
from you in order for us to report overall training satisfaction and recommend any
enhancements.

         YOUR INDIVIDUAL RESPONSES TO THIS SURVEY ARE CONFIDENTIAL.

Response Identification Number _______________ (REQUIRED FIELD)

1. What percentage of your time do you spend on the disability workload (for example, claims,
reconsiderations, hearings, CDRs, and post-entitlement actions for disability beneficiaries or
recipients)?

_____   None
_____   1-25%
_____   26-50%
_____   51-75%
_____   76-100%

Please answer the following questions relating to your training during the past two
years.

2. Overall, how satisfied are you that the training you have received, for your position, has
helped you do your job effectively and efficiently? (If you have not received training in the
past two years, please indicate so.)

    Overall         Very       Satisfied      Neither        Dissatisfied       Very               No
 Satisfaction:    Satisfied                 Satisfied nor                    Dissatisfied       training
      Job                                   Dissatisfied                                        within 2
effectiveness                                                                                     years
and efficiency
Disability
Training
Other Training




                                              C-1
2a. If you are not satisfied with the training you received, please explain why (If satisfied, go to
the next question):

Disability training ________________________________
______________________________________________
______________________________________________
______________________________________________
______________________________________________
______________________________________________

Other training ___________________________________
______________________________________________
_______________________________________________
_______________________________________________
_______________________________________________
_______________________________________________

3. Generally, how satisfied are you that the training you have received, for your position, was
provided in a “timely manner.” That is, was the training provided at a time when it could have
had the most significant impact on your ability to perform your assigned duties?

Timeliness        Very       Satisfied      Neither        Dissatisfied        Very              No
of Training     Satisfied                 Satisfied nor                     Dissatisfied      training
                                          Dissatisfied                                        within 2
                                                                                                years

Disability
Training
Other
Training

3a. If you are not satisfied with the timeliness of the training received, please explain why (If
satisfied, go to the next question):

Disability training ________________________________
______________________________________________
______________________________________________
______________________________________________
______________________________________________
______________________________________________

Other training ___________________________________
_______________________________________________
_______________________________________________
_______________________________________________
_______________________________________________




                                                C-2
4. What do you perceive to be the most significant barrier, if any, which prevents you from
receiving training to perform the duties of your position?

_____ None
_____ Lack of time
_____ Pressure to move work
_____ Insufficient staff
_____ Training not available
_____ Other, please explain
____________________________________________________________________________
____________________________________________________

5. For the duties of your position, have you and your manager or supervisor established a
personal training plan?

_____ Yes
_____ No

5a. If no, from your perspective, why was a plan not established?

_____ Time constraints
_____ Not needed
_____ Oversight
_____ Other, please explain
____________________________________________________________________________
____________________________________________________

6. For the duties of your position, have you had a discussion with your supervisor or manager
regarding the type of training or a specific curriculum (i.e., a series of training classes) that you
should complete?

_____ Yes
_____ No

In conclusion, please express, from your perspective, how SSA can improve training for your
position.
____________________________________________________________________________
____________________________________________________________________________
________________________________________

Thank you for taking the time to assist us in our efforts to report overall training satisfaction and
recommend improvements to field office training. If you have any questions, please contact
Alan Carr at (410) 965-9713. You may also email us at Alan.Carr@ssa.gov.




                                                C-3
                                                                       Appendix D

Questionnaire Responses
Question 1
      What percentage of your time do you spend on the disability workload (for
      example, claims, reconsiderations, hearings, CDRs, and post-entitlement actions
      for disability beneficiaries or recipients)?

      • None                                        35 ( 8%)
      • 1-25%                                       84 ( 20%)
      • 26-50%                                      76 ( 18%)
      • 51-75%                                     104 ( 24%)
      • 76-100%                                    127 ( 30%)
      Total                                        426 (100%)

Question 2: Disability Training
Overall, how satisfied are you that the training you have received, for your position, has
helped you do your job effectively and efficiently? (If you have not received training in
the past two years, please indicate so.)


     • Very Satisfied                                   43    ( 10%)
     • Satisfied                                       200    ( 47%)
     • Neither Satisfied nor Dissatisfied               79    ( 19%)
     • Dissatisfied                                     40    ( 9%)
     • Very Dissatisfied                                15    ( 4%)
     • No training within 2 years                       49    ( 11%)
     Total                                             426   (100%)




                                            D-1
Question 2a: If you are not satisfied with the training you received, please explain why.
                                         Disability Training

                                        Very                                       Very      No Training
   Description                         Satisfied Satisfied Neutral Dissatisfied Dissatisfied Within 2 yrs Total
   IVT or VOD: Trainers have little
   knowledge, questions
   unanswered, just referred to
1  POMS, only a summary, already                               6        11            5                    22
   seen in emails, confusing, no
   discussions, you are on your own,
   not relevant, no handouts
   Mentor (TE): not enough time to
2  help, lax attitude, not good                      1                   2            1                    4
   teacher
3  Training rushed, fast pace                                  1         2                                 3
4  Heavy Workload Demands                                      2                                           2
5  Lack of time                            1                   2         1            2                    6
   Training not available, not
6                                                    1         4         6                        2        13
   refreshed, not given
   Training too basic, Not enough
7  detail given, summary only,                                 4         6                        1        11
   just an overview
   Need hands on training with
8                                                              2         5                                 7
   case examples
9  Poor quality                                      1                   3            3                    7
10 Understaffed                                                                                            0
   Training given too soon, use or
11                                                                       2                                 2
   lose it
12 Other                                                       1         1                                 2
                                                                                                             1
   Total                                   1         3        22        39           11           3       79

Question 2: Other Training
Overall, how satisfied are you that the training you have received, for your position, has
helped you do your job effectively and efficiently? (If you have not received training in
the past two years, please indicate so.)
                • Very Satisfied                                               46 ( 11%)
                • Satisfied                                                   220 ( 52%)
                • Neither Satisfied nor Dissatisfied                           77 ( 18%)
                • Dissatisfied                                                 42 ( 10%)
                • Very Dissatisfied                                            22 ( 5%)
                • No training within 2 years                                   19 ( 4%)
                Total                                                        426 (100%)


1
  This number does not agree with the number of respondents that were either dissatisfied or very
dissatisfied. This occurred because all respondents had the option to respond or not to respond to this
question.


                                                   D-2
Question 2b: If you are not satisfied with the training you received, please explain
why.
                                    Other Training

                                             Very                                       Very
     Description                            Satisfied Satisfied Neutral Dissatisfied Dissatisfied   Total
     IVT or VOD: questions
     unanswered, only a summary,
1    already seen in emails, confusing,                    1       5         13           9          28
     no discussions, you are on your
     own, not relevant, no handouts
     Mentor (TE): not enough time to
2                                                                            1            1          2
     help, lax attitude, not good teacher
3    Training rushed, fast pace                                    1         2            1          4
4    Heavy Workload Demands                                                  2            2          4
5    Lack of time                                                  2         1                       3
     Training not available, not
6                                                                  7         9                       16
     refreshed, not given
     Training too basic, Not enough
7    detail given, summary only, just                              4         3                       7
     an overview
     Need hands on training with
8                                                                  1         3                       4
     case examples
9    Poor quality                                          1       2         1            2          6
10   Understaffed                                                            1                       1
     Training given too soon, use or
11                                                         1       3         1            1          6
     lose it
12   Other                                                                    1           1          2
                                                                                                       2
     Total                                     0           3      25         38          17         83




2
 This number does not agree with the number of respondents that were either dissatisfied or very
dissatisfied. This occurred because all respondents had the option to respond or not to respond to this
question.


                                                     D-3
Question 3: Disability Training

Generally, how satisfied are you that the training you have received, for your position,
was provided in a “timely manner.” That is, was the training provided at a time when it
could have had the most significant impact on your ability to perform your assigned
duties?
             • Very Satisfied                                   49 (12%)
             • Satisfied                                       205 (48%)
             • Neither Satisfied nor Dissatisfied               82 (19%)
             • Dissatisfied                                     35 ( 8%)
             • Very Dissatisfied                                11 ( 3%)
             • No training within 2 years                       44 (10%)
             Total                                             426 (100%)


Question 3a: If you are not satisfied with the training you received, please explain
why.
                                  Disability Training

                                         Very                                       Very        No Training
              Description               Satisfied Satisfied Neutral Dissatisfied Dissatisfied   Within 2 yrs Total
    IVT or VOD: No reference
1                                                                        1            1                        2
    material or follow up instruction
   Mentor (TE): no time to help,
2                                                    1                   3            1                        5
   lax attitude, not good teacher
3 Training rushed, fast pace                                             1            1                        2
4 Heavy Workload Demands                                                                                       0
5 Lack of time                                       1        1          2                                     4
   Training not available, not
6                                                             1          3            2             1          7
   refreshed, not given
   Training too basic, Not
   enough detail given,
7                                                             1                                                1
   summary only, just an
   overview
   Need hands on training with
8                                                             1                                                1
   case examples
9 Poor quality                                       2        1          2                                     5
10 Understaffed                                               1                                                1
   Training given too soon or
11                                                   1        6         20            2                       29
   too late, use or lose it
12 Other                                                       5         3            1                        9
                                                                                                                 3
   Total                                   0         5        17        35            8             1         66



3
 This number does not agree with the number of respondents that were either dissatisfied or very
dissatisfied. This occurred because all respondents had the option to respond or not to respond to this
question.


                                                      D-4
Question 3: Other Training

Generally, how satisfied are you that the training you have received, for your position,
was provided in a “timely manner.” That is, was the training provided at a time when it
could have had the most significant impact on your ability to perform your assigned
duties?

        • Very Satisfied                                                51 (12%)
        • Satisfied                                                    229 (54%)
        • Neither Satisfied nor Dissatisfied                            74 (17%)
        • Dissatisfied                                                  48 (11%)
        • Very Dissatisfied                                              9 ( 2%)
        • No training within 2 years                                    15 ( 4%)
        Total                                                         426 (100%)

Question 3b: If you are not satisfied with the training you received, please explain
why.
                                    Other Training

                                          Very                                       Very      No Training
                Description              Satisfied Satisfied Neutral Dissatisfied Dissatisfied Within 2 yrs Total
   IVT or VOD: Little or no useful
1                                                              1          2            1                     4
   training, doesn’t answer questions
   Mentoring: no time to help, lax
2  attitude, not good teacher, doesn't      1                  1          1            1                     4
   have time to help
3  Training rushed, fast pace                                  1          4                                  5
4  Heavy Workload Demands                                                 1                                  1
5  Lack of time                                          1     1                                             2
   Training not available, not
6                                                              1          3            1            1        6
   refreshed, not given
   Training too basic, Not enough
7  detail given, summary only, just                                       1                                  1
   an overview
   Need hands on training with
8                                                              1          2                                  3
   case examples
9  Poor quality                                          1     2          2                                  5
10 Understaffed                                                           2            1                     3
   Training given too soon or too
11                                                       1     9         24            2                     36
   late, use it or lose it
12 Other                                                 1                1                                  2
                                                                                                               4
   Total                                    1            4     17        43            6            1       72




4
 This number does not agree with the number of respondents that were either dissatisfied or very
dissatisfied. This occurred because all respondents had the option to respond or not to respond to this
question.


                                                   D-5
Question 4

What do you perceive to be the most significant barrier, if any, which prevents you from
receiving training to perform the duties of your position?

             • None                                               88 ( 21%)
             • Lack of time                                      123 ( 29%)
             • Pressure to move work                              76 ( 18%)
             • Insufficient staff                                 83 ( 19%)
             • Training not available                             10 ( 2%)
             • Other, please explain                              46 ( 11%)
             Total                                               426 (100%)

Question 4          Other, Please explain:

                                                                    Other
                           Description                             Barriers
    1   IVT or VOD Inadequate                                         1
    2   Mentoring: not enough time to help                            3
    3   Not enough detail                                             1
    4   Low budget for training                                       2
        Training not meaningful, not well
    5   developed                                                      8
        All or some of the above: lack of time,
        pressure to move work, insufficient staff,
    6   training not available                                       25
        Total                                                        40 5

Question 5

For the duties of your position, have you and your manager or supervisor established a
personal training plan?

            Yes                                             122 ( 29%)
            No                                              304 ( 71%)
            Total                                           426 (100%)




5
 This number does not agree with the number of respondents that were either dissatisfied or very
dissatisfied. This occurred because all respondents had the option to respond or not to respond to this
question.



                                                   D-6
Question 5a

If no, from your perspective, why was a plan not established?

              • Time Constraints                            103 ( 35%)
              • Not Needed                                   91 ( 31%)
              • Oversight                                    21 ( 8%)
              • Other                                       77 ( 26%)
              Total                                         295 (100%)


        5a.                          Other

                                                                               Other
                                           Description                        Barriers
                1    All Training is Video on Demand                             2
                2    Mentoring not available                                     1
                3    Don't know                                                 25
                4    Personal Training Plans do not exist in our office          2
                5    Training not available, not refreshed , not given           0
                6    Has not been discussed                                      6
                7    Requested but not provided                                  2
                8    Lack of time                                                6
                9    Never heard of a personal training plan                     1
                10   New Manager                                                 2
                11   Staffing Problems                                           2
                12   Should know how to look it up in POMS                       2
                13   I am new, just promoted                                     8
                14   I can do it myself                                          2
                15   Management not concerned                                    4
                16   Mentored                                                    1
                17   Training done as needed                                     6
                                                                                   6
                     Total                                                      72




6
 This number does not agree with the number of respondents that were either dissatisfied or very
dissatisfied. This occurred because all respondents had the option to respond or not to respond to this
question.


                                                   D-7
Question 6
For the duties of your position, have you had a discussion with your supervisor or
manager regarding the type of training or a specific curriculum (that is, a series of
training classes) that you should complete?

         Yes                                       175 ( 41%)
         No                                        251 ( 59%)
         Total                                     426 (100%)


Questions 7: In conclusion, please express, from your perspective, how SSA can
improve training for your position.

                            Ways to Improve Training

      Improvement          Satisfied and Very       Other Than          Total
                             Satisfied Staff       Satisfied Staff
                           Number Percent         Number Percent Number Percent
 Hands on training                46         27        56          38 102     32
 More time for training           49         29        26          18  75     24
 More staff                       16         10        13           9  29      9
 Cross Training                   11          7         5           3  16      5
 Refresher training               10          6        17          11  27      9
 Communicate training
 needs to                          9          5          6          4        15           5
 management
 Timeliness of training            5         3           8         5         13           4
 Other                            22        13          17        11         39          12
 Total                           168       100         148       100        316         100




                                            D-8
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM

Date:        July 14, 2008                                                       Refer To: S1J-3

To:          Patrick P. O'Carroll, Jr.
             Inspector General

From:        David V. Foster /s/
             Acting Chief of Staff

Subject:     Office of the Inspector General (OIG) Draft Report, “The Social Security Administration
             Field Office Training of Staff” (A-13-08-18029)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendations.

           Please let me know if we can be of further assistance. Direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION FIELD OFFICE TRAINING OF
STAFF” (A-13-08-18029)

Thank you for the opportunity to review and provide comments on this draft report. We
recognize the importance of training our employees. Investing in our workforce is essential to
achieving our mission and programmatic goals. Your audit reports indicate that we are making
that investment. As our resources allow, we will continue to train our employees so that they can
provide the quality service our customers expect and deserve.

Recommendation 1

Provide “hands on” and refresher training to reinforce lessons learned and resolve questions that
emerge from work experiences.

Comment

We agree. We are exploring technological tools that will provide additional hands-on training to
reinforce lessons learned. We issue numerous systems releases each year, including the years
addressed by this review. When we issue a systems release, we provide advance training to all
affected employees. That training is a carefully constructed, multi-disciplinary approach to
learning, consisting of a live interactive video teletraining (IVT) broadcast, a panel of experts to
answer questions, and a student guide with ready reference charts. Our employees use the
Mainframe Training Region for hands-on practice to enter screens and use cloned Social Security
numbers (SSN) developed for systems releases. For example, in May 2008, we issued the Dual
Entitlement Release, which contained all of these practice elements.

Since the survey was completed, we have placed computers in IVT training rooms during Basic
Entry- Level and Crossover training to facilitate hands-on practice of skills. Also, we are
modifying the way we present lessons to allow for on-air practice exercises.

Many of our in-service IVT refresher training programs are available on Video on Demand
(VOD), including the Title II, Title XVI, and Service Representative Advanced Training lessons.
After completion of the Basic Entry-Level classes, advanced training is available; this includes
some of the more complex lessons for trainees. Moving these courses to VOD allows all
employees more flexibility in viewing the training.

Recommendation 2

Provide more time for training to permit staff to remain proficient in the delivery of services to
the public.




                                                E-2
Comment

We agree. While we are always looking for ways to provide additional training, we must always
be mindful of our limited resources and increasing workload. In fiscal year (FY) 2007, we used
almost 1,300 workyears in field offices (FO) for ongoing training, or an average of over two
hours per employee per pay period. This critical training advises employees of new policies and
procedures, refreshes their knowledge, and teaches new skills. As the data in your review
suggests, we are doing an acceptable job of meeting the training needs of both new hires and
experienced employees.

We recognize that, as staffing levels fall, the stress on management and employees increases.
Any activity perceived as discretionary tends to take a secondary role to production. The barriers
cited in the report: 1) lack of time; 2) insufficient staff; and 3) pressure to move work--which
together account for 82 percent of the responses are exacerbated by having fewer people
available to handle the increasing workload.

Training can be prepared and packaged to maximize skill building as we described in
recommendation 1. However, employees have an option to view the VOD version of the live
broadcast which does not contain the interactive questioning, or postpone viewing that VOD
indefinitely.

After numerous requests over the years for additional funds to replenish staff, in FY 2008,
Congress appropriated $148 million more than the President’s budget. As a result, we are able to
replace all of our FO staff losses for the year and get a head start on hiring for FY 2009. This
cycle of hiring not only reduces the stress caused by insufficient staff, but also provides another
avenue for providing training to our experienced personnel. As they mentor new employees, they
have the opportunity to refresh their knowledge of critical systems and procedures.

Our budget shortfall is cumulative for many years. The FY 2008 budget increase will not make
us whole. However, we are hopeful that this trend to rebuild our staff will afford us the
necessary resources we need to work down backlogs as well as address any additional training
needs.

Recommendation 3

Ensure staff members are aware they can communicate their training needs to management.

Comment

We agree. In October 2007, we completed the first appraisal discussions under the Performance
Assessment and Communications System (PACS). In May 2008, a workgroup made
recommendations for the next appraisal cycle based on information from focus groups.




                                               E-3
Managers and employees alike expressed satisfaction with the increased level of discussion and
feedback. Future iterations of PACS are likely to make the administrative process less
burdensome for managers resulting in more time for meaningful dialog between employee and
manager, including training needs.

We encourage a proactive approach by the individual to employee development. We post annual
training reminders that contain intranet links to resources the employee can utilize for personal
development. This year, accessible to all employees, is a multi-part Career Makeover DVD. We
encourage employees to do research on our intranet links, pursue networking opportunities and
enhance their skills with training classes. We counsel employees to perform well in their current
job, which includes staying informed of new systems and procedures. Further, we advise them to
seek guidance from others who have succeeded in their desired career path. We are a very active
partner in providing employees with the training and development they seek and deserve.




                                              E-4
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division, 410-966-9365

   Randy Townsley, Audit Manager, 410-966-1039

Acknowledgments

In addition to those named above:

   Alan Carr, Auditor in Charge

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-08-18029.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
